USCA11 Case: 20-14714

Date Filed: 03/25/2021

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-14714-F

HERNANDO JAVIER VERGARA,
Petitioner-Appellant,
versus
UNITED STATES OF AMERICA
Respondent-Appellee.
Appeal from the United States District Court
for the Middle District of Florida
ORDER:
Hernando Vergara moves for a certificate of appealability and leave to proceed on appeal
in forma pauperis to appeal the dismissal of his 28 U.S.C. § 2255 motion to vacate as time-barred.
To merit a certificate of appealability, Vergara must show that reasonable jurists would find
debatable both (1) the merits of an underlying claim, and (2) the procedural issues that she seeks
to raise. See 28 U.S.C. § 2253(c)(2); Slack v. McDaniel, 529 U.S. 473, 478 (2000). Because
Vergara’s § 2255 motion is plainly barred by § 2255(f)’s one-year statute of limitations, he has
failed to make the requisite showing. The motion for a certificate of appealability is DENIED.
Vergara’s motion for leave to proceed in forma pauperis is DENIED AS MOOT.
/s/ Britt C. Grant
UNITED STATES CIRCUIT JUDGE

Case 8:20-CV-01493-JDW-TGW Document 8 Filed 12/01/20 Page 1 of 10 PagelD 51

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION
HERNANDO JAVIER VERGARA,
Petitioner,
Case No.: 8:20-cv-1493-T-27TGW
Criminal Case No.: 8:16-cr-21-T-27TGW

v.

UNITED STATES OF AMERICA,
Respondent.
ORDER
BEFORE THE COURT are Petitioner Vergara’s Amended Motion Under 28 U.S.C. §
2255 to Vacate, Set Aside, or Correct Sentence (cv Dkt. 3), the United States’ Motion to Dismiss
(cv Dkt. 6), and Vergara’s Response (cv Dkt. 7). Upon review, Vergara’s § 2255 motion is
DENIED. The United States’ Motion to Dismiss is DENIED as moot.
BACKGROUND
In 2016, Vergara was indicted and charged with transportation of child pornography, in
violation of 18 U.S.C. § 2252(a)(1) and (b)(1) (Count One), and possession of child pornography,
in violation of 18 U.S.C. § 2252(a)(4)(B) and (b)(2) (Count Two), (cr Dkt. 1). Following a bench
trial, he was found guilty on both counts, (cr Dkt. 36). He was sentenced to 96 months
imprisonment, followed by a life term of supervised release, (cr Dkts. 53, 62). His convictions and
sentence were affirmed on appeal, and the Supreme Court denied his petition for writ of certiorari
on October 1, 2018. (cr Dkts. 55, 68, 70); see also United States v. Vergara, 884 F.3d 1309 (11th
Cir.), cert, denied, 139 S. Ct. 70 (2018).

1

Case 8:20-cv-01493-JDW-TGW Document 8 Filed 12/01/20 Page 2 of 10 PagelD 52

Vergara filed his initial § 2255 motion on June 26, 2020. (cv Dkt. 1 at 7). He was directed
to file an amended motion on the prescribed form, which he filed on July 14, 2020. (cv Dkts. 2,
3). He raises three grounds for relief, contending that under United States v. Haymond, 139 S. Ct.
2369 (2019), his life term of supervised release violates the Fifth, Sixth, and Eighth Amendments.
(cv Dkt. 3 at 4-7). As the United States correctly contends, his claims are untimely, (cv Dkt. 6).
The claims are, in any event, without merit. i
DISCUSSION
In summary, Vergara is not entitled to relief because his claims are untimely and without
merit. Specifically, his claims do not arise under Haymond, which is not retroactively applicable
to cases on collateral review. Further, Eleventh Circuit precedent instructs that his term of
supervised release does not violate the double jeopardy clause, his right to trial by jury, or the
Eighth Amendment’s prohibition against cruel and unusual punishment.
Timeliness
The Antiterrorism and Effective Death Penalty Act imposes a one-year statute of
limitations to file a § 2255 motion, which runs from the latest of:
(1) the date on which the judgment of conviction becomes final;
(2) the date on which the impediment to making a motion created by governmental action
in violation of the Constitution or laws of the United States is removed, if the movant
was prevented from making a motion by such governmental action;
(3) the date on which the right asserted was initially recognized by the Supreme Court, if
that right has been newly recognized by the Supreme Court and made retroactively
applicable to cases on collateral review; or

1 An evidentiary hearing is unnecessary to resolve Vergara’s claims, since the § 2255 motion “and the files
and records of the case conclusively show that [he] is entitled to no relief.” 28 U.S.C. § 2255(b).

2

Case 8:20-cv-01493-JDW-TGW Document 8 Filed 12/01/20 Page 3 of 10 Page ID 53

(4) the date on which the facts supporting the claim or claims presented could have been
discovered through the exercise of due diligence.
28 U.S.C. § 2255(f). Vergara does not dispute that he failed to file his motion within one year of
when his judgment of conviction became final.2 Rather, he contends that “this issue is being raised
under [Haymond\, which had not been decided at that time.” (cv Dkt. 3 at 4, 6, 7, 9,11). He further
asserts that Haymond announced a new rule of constitutional law that is retroactively applicable
to cases on collateral review, (cv Dkt. 7 at 1-2). However, his contentions are without merit.
First, contrary to Vergara’s assertions, courts have found that Haymond does not apply
retroactively to cases on collateral review. See, e.g., United States v. Salazar, 784 F. App’x 579,
584 (10th Cir. 2019), cert, denied, 140 S. Ct. 1232 (2020) (noting that Haymond’s holding is
procedural and finding that “a reasonable jurist could not debate the conclusion that Haymond is
not retroactive and does not satisfy section 2255(f)(3)”); see also In re Dixon, No. 20-12327-C,
2020 U.S. App. LEXIS 21081, at *6 (11th Cir. July 7, 2020) (denying application for second or
successive § 2255 motion); In re Taylor, No. 20-12330,2020 U.S. App. LEXIS 20942, at *5 (11th
Cir. July 6, 2020) (same). As the Eleventh Circuit explained in the § 2255(h)(2) context, “the
Supreme Court has not made Haymond retroactively applicable on collateral review,” and
“precedent does not dictate that Haymond is retroactively applicable on collateral review because .
. . the line of cases that Haymond relied on [is] not retroactive.” In re Dixon, 2020 U.S. App.
LEXIS 21081, at *6.3

2 Vergara’s judgment of conviction became final on October 1, 2018, when the Supreme Court denied his
petition for writ of certiorari, (cr Dkt. 70); see Washington v. United States, 243 F.3d 1299, 1300-01 (11th Cir. 2001).
He placed his initial § 2255 motion in the prison mailing system on June 26, 2020, more than one year later, (cv Dkt.
1 at 7); (cv Dkt. 1-1); see Adams v. United States, 173 F.3d 1339, 1341 (11th Cir. 1999).
3 Vergara’s reliance on United States v. Carpenter, No. 17-15683-AA, 2019 U.S. App. LEXIS 26790 (11th
Cir. Sept. 4,2019), is unavailing, (cv Dkt. 7 at 2). In Carpenter, the defendant had filed a “Motion to Strike a Portion

3

Case 8:20-cv-01493-JDW-TGW Document 8 Filed 12/01/20 Page 4 of 10 PagelD 54

Second, Vergara has not demonstrated that his claims arise under Haymond. See id. In
Haymond, the Supreme Court held that a provision in 18 U.S.C. § 3583(k), which requires
revocation of supervised release and a minimum term of five years imprisonment for sex offenders
who commit certain crimes while on supervised release, violates the Fifth and Sixth Amendments.
139 S. Ct. at 2373. Unlike Haymond, however, Vergara argues that his term of supervised release
violates the Fifth Amendment’s double jeopardy clause, violates the Sixth Amendment because it
exposes him to possible imprisonment without a jury verdict, and violates the Eighth Amendment
because it allows for a penalty exceeding the statutory maximum sentence. See (cv Dkt. 3). Indeed,
he does not claim that he is subject to mandatory revocation of supervised release and
imprisonment based on a non-jury finding that he was a sex offender who committed a crime
enumerated in § 3583(k).
Accordingly, he is unable to rely on § 2255(f)(3) to render his motion timely. And he does
not contend there is any basis to toll the statute of limitations.4 The motion is therefore untimely.
However, even if Vergara’s claims are not untimely, they are without merit.

of 18 U.S.C. § 3583(k) as Unconstitutional,” which was denied by the district court. See United States v. Carpenter,
No. 2:09-cr-36-FtM-29SPC, 2017 U.S. Dist. LEXIS 200347 (M.D. Fla. Dec. 6,2017). On appeal, the Eleventh Circuit
granted a joint motion to vacate judgment on revocation of supervised release, and remanded the matter for “further
revocation proceedings, in light of the Supreme Court’s recent decision in [Haymond\.” Carpenter, 2019 U.S. App.
LEXIS 26790, at *1. The Eleventh Circuit did not determine whether Haymond applies retroactively to cases on
collateral review.
4 Vergara’s assertions do not support a finding of equitable tolling, which requires him to show that he
untimely filed “because of extraordinary circumstances that are both beyond his control and unavoidable even with
diligence.” Outler v. United States, 485 F.3d 1273, 1280 (11th Cir. 2007) (citations omitted). He fails to show
extraordinary circumstances and due diligence. Actual innocence also provides an exception to the statute of
limitations “when the petitioner presents new evidence that ‘shows it is more likely than not that no reasonable juror
would have convicted the petitioner.’” Gore v. Crews, 720 F.3d 811,817(11th Cir. 2013) (citation omitted). Vergara
does not present evidence to support such a finding.

4

Case 8:20-cv-01493-JDW-TGW Document 8 Filed 12/01/20 Page 5 of 10 PagelD 55

Ground One
In Ground One, Vergara asserts that “Supervised Release Violates the 5th Amendment’s
Prohibition against Double Jeopardy.” (cv Dkt. 3 at 4). He explains that “[supervised release must
necessarily be applied only where the exact elements of another violation of law have to be proven,
thus failing the Supreme Court’s test to determine if a statute violates Double Jeopardy.” (Id.); see
also (cv Dkt. 3-1 at 2-4). These contentions are without merit.
The double jeopardy clause provides that no person shall “be Subject for the same offence
to be twice put in jeopardy of life or limb.” U.S. Const, amend. V. “This protection applies both
to successive punishments and to successive prosecutions for the same offense.” United States v.
Woods, 111 F.3d 990, 991-92 (11th Cir. 1997) (citation omitted). Vergara cites no persuasive
authority in support of his contention that his term of supervised release violates the double
jeopardy clause because “[supervised release must necessarily be applied only where the exact
elements of another violation of law have to be proven,” or that “every time a supervised release
revocation hearing is held, the defendant is, for a second time, third time, fourth time, ad infinitum
time, subjected to jeopardy of life or limb.” (cv Dkt. 3 at 4); (cv Dkt. 3-1 at 3). Rather, his term of
supervised release has not been revoked. And as the Eleventh Circuit explained in Woods,
revocation of probation for commission of a subsequent criminal offense
does not constitute punishment for that criminal offense for purposes of
double jeopardy; rather, revocation of probation constitutes a modification
of the terms of the original sentence and implicates solely the punishment
initially imposed for the offense conduct underlying that sentence.
[R] evocation of probation constitutes part of a defendant’s original sentence
and does not preclude subsequent prosecution for the criminal conduct that
gave rise to the probation revocation.

5

Case 8:20-cv-01493-JDW-TGW Documents Filed 12/01/20 Page 6 of 10 PagelD 56

127 F.3d at 992-93.5 Moreover, following Haymond, the Eleventh Circuit has reiterated that
“[pjunishment imposed upon the revocation of supervised release is a modification of the sentence
imposed for the original offense; it is not punishment for the conduct that violated the terms of
supervised release.” United States v. Paul, 826 F. App’x 809, 814 (11th Cir. 2020) (rejecting
double jeopardy challenge).
Accordingly, Vergara’s term of supervised release does not violate the double jeopardy
clause, and he is not entitled to relief on this ground.
Ground Two
In Ground Two, Vergara asserts that “Supervised Release Violates the 6th Amendment’s
guarantee of a right to trial by jury (due process).” (cv Dkt. 3 at 5). He explains:
Supervised release exposes a defendant to revocation proceedings that carry
penalty of additional prison time beyond his 96 month sentence without the
benefit of a jury verdict. He has standing due to being sentenced to
supervised release.
(Id.); see also (cv Dkt. 3-1 at 4-5). These contentions are without merit.
First, Vergara’s supervised release has not been revoked. And he cites no persuasive
authority in support of his contention that, following Haymond, the imposition of supervised
release violates a defendant’s right to a jury trial. Rather, the Eleventh Circuit has continued to
uphold 18 U.S.C. § 3583(e)(3), which provides for revocation of supervised release. See, e.g.,
United States v. Walton, 819 F. App’x 731, 733-34 (11th Cir. 2020); United States v. Patterson,

5 In Woods, the Eleventh Circuit clarified that “[f]or purposes of our analysis within the framework of the
Double Jeopardy Clause, there is no substantive distinction between revocation of probation and supervised
release.” 127 F.3d at 993 n.l.

6

Case 8:20-cv-01493-JDW-TGW Document 8 Filed 12/01/20 Page 7 of 10 PagelD 57

No. 19-13716, 2020 WL 5946634, at *2-3 (11th Cir. Oct. 7, 2020). As the Eleventh Circuit
explains,
In United States v. Cunningham, [607 F.3d 1264 (11th Cir. 2010)] we held
that § 3583(e)(3) does not violate the Fifth Amendment right to due process
or the Sixth Amendment right to a jury trial. The violation of supervised
release need only be proven by a preponderance of the evidence, and there
is no right to trial by jury in a supervised release revocation hearing.
[The defendant] argues that [Haymond] casts doubt on the constitutionality
of § 3583(e), and thus our holding in Cunningham. In Haymond, the
Supreme Court held that § 3583(k) violates the Fifth and Sixth Amendments
because it imposes a new mandatory minimum sentence upon revocation of
supervised release based on additional judge-found facts. But it clarified
that its holding was “limited to § 3583(k),” and it explicitly did not address
the constitutionality of § 3583(e) or (g). Haymond therefore does not
overrule or abrogate our precedent in Cunningham regarding the
constitutionality of § 3583(e).
Walton, 819 F. App’x at 733-34 (internal quotation marks, citations, and brackets omitted).
Accordingly, binding Eleventh Circuit precedent instructs that the imposition of supervised
release does not violate Vergara’s Sixth Amendment right to a jury trial, notwithstanding the
possibility that the term might be revoked based on non-jury findings. He is therefore not entitled
to relief on this ground.
Ground Three
In Ground Three, Vergara asserts that “Supervised Release Violates the 8th Amendment’s
prohibition on Cruel and unusual punishment because it exposes a defendant to a prison term that
goes beyond the statutory maximum for his crime.” (cv Dkt. 3 at 7). He explains:
Supervised release has not [sic] protections to prevent a defendant from
serving prison time that exceeds the statutory maximum for his crime. Any
prison time a defendant is sentenced to is considered to be a part of the
original sentence, so a revocation that adds more than 24 Mos in this
instance would place the defendant in prison beyond his maximum
sentence.
7

Case 8:20-cv-01493-JDW-TGW Documents Filed 12/01/20 Page 8 of 10 PagelD 58

(Id.); see also (cv Dkt. 3-1 at 5-6). These contentions are without merit.
First, Vergara’s supervised release has not been revoked, and he does not explain how a
term of imprisonment exceeding 24 months would “place [him] in prison beyond his maximum
sentence.” Indeed, although he was sentenced to 96 months and his sentencing guidelines range
was 87 to 108 months, the statutory maximum term on Count One was 20 years, (cr Dkt. 47 lfl[ 7172). Second, he cites no authority in support of his contention that his term of supervised release
violates the Eighth Amendment because it may result in a term of imprisonment exceeding his
crimes’ statutory maximum. Rather, the Eleventh Circuit has found that the possibility of a
revocation of supervised release increasing a defendant’s term of imprisonment beyond the
statutory maximum does not violate the Fifth and Sixth Amendments. See United States v. Horne,
789 F. App’x 139, 142-43 (11th Cir. 2019). As the Eleventh Circuit explains:
[The defendant] has shown no violation of his Fifth and Sixth Amendment
rights when the district court imposed a new term of imprisonment that
exceeded the statutory maximum sentence available for his original crime
of conviction without conducting a jury trial.
[He] requests a remand for resentencing, arguing that the Supreme Court’s
recent decision in [Haymond], cast fresh light on the constitutionality of §
3583(e)(3). We disagree. Haymond explicitly reserved the question of
whether § 3583(e)(3) violates Apprendi. Because Haymond did not overrule
or abrogate our precedent, [his] argument fails.
Horne, 789 F. App’x at 143; see also Paul, 826 F. App’x at 814-15.
And the Eleventh Circuit has upheld life terms of supervised release in child pornography
cases. See, e.g., United States v. Moriarty, 429 F.3d 1012, 1023-25 (11th Cir. 2005) (rejecting
Eighth Amendment challenge); United States v. Rosenthal, 295 F. App’x 985, 988 (11th Cir.

8

Case 8:20-cv-01493-JDW-TGW Documents Filed 12/01/20 Page 9 of 10 PagelD 59

2008).6 Indeed, Vergara faced a statutory minimum term of supervised release of 5 years to life,
and his sentence was affirmed on appeal, (cr Dkt. 47 fflj 76-78); Vergara, 884 F.3d at 1313; see
also Moriarty, 429 F.3d at 1024 (noting that, “[i]n general, a sentence within the limits imposed
by statute is neither excessive nor cruel and unusual under the Eighth Amendment” (citation
omitted)). In summary, Vergara is not entitled to relief on this ground.7
Certificate ofAppealability (“COA ”)
A COA may issue “only if the applicant has made a substantial showing of the denial of a
constitutional right,” which requires Vergara to demonstrate “that jurists of reason could disagree
with the district court’s resolution of his constitutional claims or that jurists could conclude the
issues presented are adequate to deserve encouragement to proceed further.” Miller-El v. Cockrell,
537 U.S. 322, 327 (2003); see also Slack v. McDaniel, 529 U.S. 473, 484 (2000) (discussing
standard for procedural rulings). I find that jurists of reason could not disagree with the resolution
of Vergara’s constitutional claims or the procedural mlings, or conclude that the issues presented
are adequate to deserve encouragement to proceed further. Because he has not met the required
standard, he is not entitled to a COA and cannot appeal in forma pauperis.

6 The Eleventh Circuit has further found that a life term of supervised release with a restriction on the use of
computers does not violate a defendant’s constitutional rights where the restriction is “tailored” to the offense of
conviction and “reasonably related to legitimate sentencing considerations.” See, eg., United States v. Bobal, No. 1910678, 2020 WL 7021549, at *1,4 (11th Cir. Nov. 30, 2020).
7 To the extent Vergara attempts to challenge the constitutionality of 18 U.S.C. § 3583 independent of the
specific claims he raises, see (cv Dkt. 3-1 at 6), he does not identify the basis of his challenge and cites no authority
in support. See Tejada v. Dugger, 941 F.2d 1551, 1559 (11th Cir. 1991) (noting that conclusory, unsupported claims
are insufficient). Any such claim is without merit and due to be denied.

9

Case 8:20-cv-01493-JDW-TGW Document 8 Filed 12/01/20 Page 10 of 10 PagelD 60

CONCLUSION
Petitioner Vergara’s § 2255 motion is untimely and without merit. Accordingly, the motion
is DENIED (cv Dkt. 3). The United States’ Motion to Dismiss is DENIED as moot, (cv Dkt. 6).
The Clerk is directed to enter judgment in the United States’ favor and against Vergara, and to
CLOSE this case.
DONE AND ORDERED this 1st day of December, 2020.

A/ James €. 'Wkittemore
JAMES D. WHITTEMORE
United States District Judge

Copies to: Petitioner, Counsel of Record

10

